<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 115-526]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-526

                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   on


S. 599/H.R. 1488                      S. 2441                               S. 2876
S. 1644                               S. 2570                               S. 2889/H.R. 4895
S. 1926/H.R. 2156                     S. 2604                               S. 3176/H.R. 5979
S. 1987/H.R. 2600                     S. 2672                               S. 3287/H.R. 5655
S. 1993                               S. 2831/H.R. 5751                     S. 3298
S. 2015                               S. 2870                               H. Con. Res. 33
 


                               __________

                            AUGUST 15, 2018

                               __________


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-317                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc8c93bc9f898f889499908cd29f9391d2">[email&#160;protected]</a>                
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota
                                 
                                 
                                 ------                                

                     Subcommittee on National Parks

                         STEVE DAINES, Chairman

JOHN BARRASSO                        ANGUS S. KING, JR.
MIKE LEE                             BERNARD SANDERS
CORY GARDNER                         DEBBIE STABENOW
LAMAR ALEXANDER                      MARTIN HEINRICH
JOHN HOEVEN                          MAZIE K. HIRONO
ROB PORTMAN                          TAMMY DUCKWORTH

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                Michelle Lane, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
          Rebecca Bonner, Democratic Professional Staff Member
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Daines, Hon. Steve, Subcommittee Chairman and a U.S. Senator from 
  Montana........................................................     1
King, Jr., Hon. Angus S., Subcommittee Ranking Member and a U.S. 
  Senator from Maine.............................................     9

                                WITNESS

Smith, Mr. P. Daniel, Deputy Director, National Park Service, 
  U.S. Department of the Interior................................     9

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Agenda...........................................................     7
American Battlefield Trust:
    Letter for the Record........................................    54
Barr, Hon. Andy:
    Statement for the Record.....................................    55
Belton, Mark:
    Letter for the Record........................................    57
Chesapeake Conservancy:
    Letter and Resolution #8 12.17.15 for the Record.............    58
City of Santa Clarita (California):
    Letter for the Record regarding S. 1993......................    62
    Letter for the Record regarding S. 1926/H.R. 2156............    64
City of Thousand Oaks (California):
    Letter for the Record........................................    66
Corkern, Wilton and Mary Bruce:
    Letter for the Record........................................    68
Daines, Hon. Steve:
    Opening Statement............................................     1
Dunn, Cindy Adams:
    Letter for the Record........................................    70
Essex National Heritage Commission:
    Statement for the Record.....................................    72
Faull, Dr. Katherine M.:
    Letter for the Record........................................    76
Feinstein, Hon. Dianne:
    Statement for the Record.....................................    77
Garcetti, Hon. Eric:
    Letter for the Record........................................    81
Hughes, Elizabeth:
    Letter for the Record........................................    83
Kaine, Hon. Tim:
    Statement for the Record.....................................    84
King, Jr., Hon. Angus S.:
    Opening Statement............................................     9
Knight, Hon. Steve:
    Statement for the Record.....................................    85
Markey, Hon. Edward J. and Warren, Hon. Elizabeth:
    Statement for the Record.....................................    87
McConnell, Hon. Mitch:
    Statement for the Record.....................................    88
Military Order of the Purple Heart:
    Letter for the Record........................................     3
National Parks Conservation Association:
    Letter for the Record dated August 14, 2018..................    90
    Letter for the Record dated August 30, 2018..................    94
Oil Region Alliance:
    Statement for the Record.....................................    96
Platts, Mark:
    Letter for the Record........................................   100
Potomac Conservancy:
    Letter for the Record........................................   101
Rivers of Steel Heritage Corporation:
    Statement for the Record.....................................   102
Shatto, Marian L.:
    Letter for the Record........................................   111
Smith, P. Daniel:
    Opening Statement............................................     9
    Written Testimony............................................    15
    Response to Question for the Record..........................    52
U.S. Department of Agriculture:
    Statement for the Record.....................................    12
Ventura County (California) Board of Supervisors:
    Letter for the Record........................................   112
Veterans of Foreign Wars of the United States, Department of 
  Montana:
    Letter for the Record........................................     4
Vietnam Veterans of America:
    Letter for the Record........................................   113
Vietnam Veterans Memorial Fund:
    Letter for the Record........................................     5
West Hollywood (California) Chamber of Commerce:
    Letter for the Record........................................   114
(The) Wilderness Society:
    Letter for the Record........................................   115

                               ----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
public/index.cfm/2018/8/subcommittee-on-national-parks-legislative-
hearing-08-15-2018

 
                          PENDING LEGISLATION

                              ----------                              


                       WEDNESDAY, AUGUST 15, 2018

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:03 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Steve Daines, 
presiding.

            OPENING STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines [presiding]. The Subcommittee will come to 
order.
    Before we get started, I would like to take a moment to 
recognize Darla Ripchensky. Happy Birthday. She is the Chief 
Clerk here on the Committee.
    On this occasion of her birthday, I do think it is 
important that we recognize Darla. In fact, I was chatting with 
my staff here today, I think one of my staff members said he 
sent you four emails already today.
    We want to thank you for the incredible work that you do in 
service to the Energy and Natural Resources Committee and to 
the United States Senate as a whole.
    Darla, thank you for everything you do and have a happy 
birthday.
    I know it is a bit unusual to hold a legislative hearing in 
this room in August but it does give us, as a Committee, a nice 
opportunity to continue to move the priorities of this body 
forward.
    The 24 bills we are examining this afternoon cover a wide 
range of issues relating to the federal land administered by 
the Department of the Interior (DOI), primarily by the National 
Park Service (NPS), as well as one item that would, if enacted, 
be administered by the United States Forest Service.
    Some of the items we will hear today are new to this 
Subcommittee and others we have heard before in previous 
Congresses, but this will give us a great opportunity to update 
the record as well as for members to ask questions as they see 
fit.
    Because we have so many items on the agenda today, I will 
not go through each one individually, but I would like to 
highlight a few before we get started.
    First, I would like to highlight Senate bill 3298, which I 
recently introduced with my colleague, Senator Duckworth. I 
think most of us are very familiar with the Vietnam Veterans 
Memorial Wall, now one of the most iconic memorials on the 
National Mall. In fact, Montana currently has approximately 
31,000 Vietnam Veterans. Montana, on a per capita basis, 
usually is either second or third in the nation for veteran 
populations. The Wall honors not only the veterans, but all 
those who served and sacrificed in that war. It is a place of 
great significance, not only to Vietnam Veterans, but to our 
country as a whole.
    The Wall was funded and built by the Congressionally-
authorized, non-profit organization, Vietnam Veterans Memorial 
Fund, Incorporated, in 1980. Now, several decades later, this 
group is working hard to build an education center near the 
Wall. We want to ensure that future generations of Americans 
understand the importance of the Vietnam War and its impact on 
our shared history as Americans. They have worked hard to raise 
funds for the education center but need a bit more time to meet 
their deadline which runs out in November 2018. This 
legislation, the Vietnam Veterans Memorial Visitor Center 
Extension Act, will provide them with the time that they need 
to continue raising funds so that the center can be built and 
an endowment created for ongoing maintenance requirements.
    At this time, I would like to enter several letters of 
support for this legislation into the official record from both 
Montana and other national groups who have asked Congress to 
extend the authorization.
    I do that without objection.
    [Letters of support for Senate bill 3298 follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Speaking of those who have served, we have 
another item on our agenda today, Senate bill 3287, the Camp 
Nelson Heritage National Monument Act, which was introduced by 
Leader McConnell, and its companion bill, H.R. 5655, which 
recently passed the House by a vote of 376 to 4. This 
legislation would establish Camp Nelson Heritage National 
Monument as a unit of the National Park System. Camp Nelson 
opened during the Civil War, originally as a supply depot. It 
quickly transformed into a training and recruiting center for 
the Union Army, primarily for African American soldiers. Over 
the course of the Civil War, Camp Nelson recruited over 10,000 
African American soldiers into the Union Army and became a 
temporary home for families of the soldiers.
    Several significant events at the site, including a 
temporary expulsion of the families, led the U.S. Army to 
change its policies toward refugees and family members of 
soldiers.
    This site, which has already been designated as part of the 
National Park Service's National Underground Railroad Network 
to Freedom and as a National Historic Landmark, is an important 
part of our nation's history and we look forward to hearing 
more about it today.
    As I mentioned earlier, we have two dozen items on the 
agenda, ranging from modifications to memorials on the National 
Mall to adjusting funding caps for National Heritage Areas and 
lifting reversionary interests on federal lands held by the 
Park Service. Each of these agenda items are not only important 
to individual senators but to our nation's parks and citizens 
as a whole.
    This Subcommittee is so important to our members and our 
citizens because we often talk about very local issues and 
about access to parks. My wife and I were literally in 
Yellowstone National Park just last week.
    In Montana, access to public lands and recreation is at the 
forefront of our minds and our economy. It is my hope, as 
Chair, I can continue to further that discussion.
    In fact, I just got back from hiking in the Montana 
wilderness. My wife and I did a 25-mile loop up where there are 
no boot prints, no trails, just elk hair caddis, a fly rod and 
cutthroat trout. We spent time visiting our public lands, 
seeing firsthand the economic benefits they provide to our 
communities.
    The purpose of this hearing is to consider the 
Administration's views on pending legislation and allow 
Committee members an opportunity to ask questions. We will also 
include written statements that have been sent to the 
Subcommittee in the official hearing record.
    Because of the large number of bills on today's agenda I 
will not read through the list, but at this time I will include 
the complete agenda in the hearing record, without objection.
    [Today's complete agenda follows:]

                             COMMITTEE ON 
                      ENERGY AND NATURAL RESOURCES

                     Subcommittee on National Parks

                HEARING ANNOUNCEMENT AND AGENDA

    This notice is to advise you of a legislative hearing 
before the Committee on Energy and Natural Resources' 
Subcommittee on National Parks. The hearing will be held on 
Wednesday, August 15, 2018, at 4:00 p.m. in Room 366 of the 
Dirksen Senate Office Building in Washington, DC.
    The purpose of this hearing is to receive testimony on the 
following bills:
  <bullet> S. 599 (Donnelly) / H.R. 1488 (Visclosky), to 
        redesignate the Indiana Dunes National Lakeshore as the 
        ``Indiana Dunes National Park'', and for other 
        purposes;
  <bullet> S. 1644 (Cardin), to clarify the status of the 
        Captain John Smith Chesapeake National Historic Trail 
        as a unit of the National Park System;
  <bullet> S. 1926 (Harris) / H.R. 2156 (Knight), to provide 
        for the establishment of a national memorial and 
        national monument to commemorate those killed by the 
        collapse of the Saint Francis Dam on March 12, 1928, 
        and for other purposes;
  <bullet> S. 1987 (Grassley) / H.R. 2600 (Young), to provide 
        for the conveyance to the State of Iowa of the 
        reversionary interest held by the United States in and 
        to certain land in Pottawattamie County, Iowa, and to 
        express the sense of Congress relating to the continued 
        provision of information relating to certain national 
        historic trails;
  <bullet> S. 1993 (Feinstein), to adjust the boundary of the 
        Santa Monica Mountains National Recreation Area to 
        include the Rim of the Valley Corridor, and for other 
        purposes;
  <bullet> S. 2015 (Baldwin), to clarify the status of the 
        North Country, Ice Age, and New England National Scenic 
        Trails as units of the National Park System, and for 
        other purposes;
  <bullet> S. 2441 (Casey), to amend the Steel Industry 
        American Heritage Area Act of 1996 to repeal the 
        funding limitation;
  <bullet> S. 2570 (Markey), to repeal the funding 
        authorization sunset and the total funding cap for the 
        Essex National Heritage Area;
  <bullet> S. 2604 (Casey), to amend the Oil Region National 
        Heritage Area Act to reauthorize the Oil Region 
        National Heritage Area, and for other purposes;
  <bullet> S. 2672 (Moran), to authorize the Society of the 
        First Infantry Division to make modifications to the 
        First Division Monument located on federal land in 
        President's Park in Washington, DC, and for other 
        purposes;
  <bullet> S. 2831 (Hatch) / H.R. 5751 (Bishop), to redesignate 
        Golden Spike National Historic Site and to establish 
        the Transcontinental Railroad Network;
  <bullet> S. 2870 (Gardner), to authorize the Secretary of the 
        Interior to conduct a special resource study of the 
        site known as `Amache' in the State of Colorado;
  <bullet> S. 2876 (Bennet), to amend the National Trails 
        System Act to provide for the study of the Pike 
        National Historic Trail;
  <bullet> S. 2889 (Wicker) / H.R. 4895 (Thompson), to 
        establish the Medgar Evers National Monument in the 
        State of Mississippi, and for other purposes;
  <bullet> S. 3176 (McConnell) / H.R. 5979 (Rogers), to 
        establish the Mill Springs Battlefield National 
        Monument in the State of Kentucky as a unit of the 
        National Park System, and for other purposes;
  <bullet> S. 3287 (McConnell) / H.R. 5655 (Barr), to establish 
        the Camp Nelson Heritage National Monument in the State 
        of Kentucky as a unit of the National Park System, and 
        for other purposes;
  <bullet> S. 3298 (Daines), to extend the authority of the 
        Vietnam Veterans Memorial Fund, Inc., to establish a 
        visitor center for the Vietnam Veterans Memorial; and
  <bullet> H. Con. Res. 33 (Goodlatte), designating the George 
        C. Marshall Museum and George C. Marshall Research 
        Library in Lexington, Virginia, as the National George 
        C. Marshall Museum and Library.
    Senator Daines. We have one witness today, Mr. P. Daniel 
Smith, the Deputy Director, acting in the capacity of the 
Director, National Park Service, U.S. Department of the 
Interior.
    Mr. Smith, thank you for being with us here today.
    But first, let me turn to the Ranking Member, Senator King, 
for his opening remarks.

             STATEMENT OF HON. ANGUS S. KING, JR., 
                    U.S. SENATOR FROM MAINE

    Senator King. Thank you, Senator Daines. Just as you were 
in Yellowstone this past weekend, I am going to be in Acadia 
National Park in Maine next weekend, assuming we are allowed to 
go home, but I am looking forward to that visit to Mount Desert 
Island.
    Thank you to our witness, Deputy Director Smith, for taking 
the time to join us here today and for analyzing, on behalf of 
the Administration, these bills. We will be talking about a 
wide variety of important National Park related issues.
    You can tell by looking at these bills and the people who 
have sponsored them just how important historic and natural 
preservation is to the people in all corners of this country. 
Whether it is commemorating a beloved and respected historical 
figure, trail, or site, the American people trust--important 
word, trust--the National Park Service as a steward of these 
treasured resources. When you consider the general lack of 
trust in government as an institution these days, maintaining 
and living up to that trust is no small feat. Yet, the National 
Park Service has done it and is doing it every day.
    That is why I can understand that the Park Service must be 
prudent in taking on more property, sites, and projects. I will 
be interested to hear today why some sites make the list and 
make the cut and others do not.
    Your task is important, and we appreciate the insights and 
experience that you bring to our hearing.
    Thank you, Mr. Smith.
    Thank you, Mr. Chairman.
    I look forward to the hearing.
    Senator Daines. All member statements will be added to the 
hearing record.
    It is now time to hear from our witness, Mr. Smith, Deputy 
Director, National Park Service, U.S. Department of the 
Interior.
    At the end of the testimony, we will begin questions. Your 
full written testimony will be made part of the official 
hearing record.
    Mr. Smith, you may proceed.

        STATEMENT OF P. DANIEL SMITH, DEPUTY DIRECTOR, 
         NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Smith. Chairman Daines, Ranking Member King, thank you 
for the opportunity to present the Department of the Interior's 
views on the 25 bills on today's agenda.
    I will submit full statements for the record, and I will 
briefly summarize our views.
    The Department supports the following bills:
  --S. 2889 and H.R. 4895 which would authorize the Secretary 
        of the Interior to establish the Medgar Evers Home 
        National Monument in Jackson, Mississippi, as a unit of 
        the National Park System.
  --S. 3176 and H.R. 5979 which would authorize the Secretary 
        to establish Mill Springs Battlefield National Monument 
        in Nancy, Kentucky, as a unit of the National Park 
        System.
  --S. 3287 and H.R. 5655 which would authorize the Secretary 
        of the Interior to establish Camp Nelson Heritage 
        National Monument in Nicholasville, Kentucky, as a unit 
        of the National Park System.
    All three of these sites are designated national historic 
landmarks and all three are owned by organizations that have 
indicated a desire to donate the properties to the National 
Park Service. These sites offer exceptional opportunities for 
the National Park System to increase its ability to preserve 
and interpret the story of the Civil War and the Civil Rights 
Movement in this nation.
    In tandem, with supporting the legislative efforts of the 
sponsors of these three pieces of legislation, the Department 
is working on a parallel effort to prepare for the potential 
designation of these sites as national monuments under the 
Antiquities Act. The National Park Service has opened a 30-day 
public comment period on all three of these designations to 
garner public input. Either through legislation or through the 
use of the Antiquities Act, we hope to see the vision of these 
three units become reality.
    The Department also supports:
  --S. 2831 and H.R. 5751 which would re-designate Golden Spike 
        National Historic Site as Golden Spike National 
        Historical Park.
  --S. 3298 which would extend the authority for the 
        establishment of the Vietnam Veterans Memorial Visitors 
        Center until 2022.
    For several of the bills we support we are requesting 
amendments. These amendments are explained in our full 
statements, and we look forward to working with the Committee 
on those amendments.
    The Department does not object to the following bills:
  --S. 2015 which would designate as units of the National Park 
        System the three national scenic trails that currently 
        are not units, the North Country, Ice Age and New 
        England National Scenic Trails.
  --S. 2672 which would authorize modifications to the First 
        Division Monument located in President's Park.
  --S. 1987 and H.R. 2600 which would require the 
        relinquishment of the deed restriction on property the 
        Federal Government conveyed to the State of Iowa for 
        use as a national trail center. However, the Department 
        would like to work with the Committee on amendments to 
        ensure that public uses are preserved on the property.
    The Department does not support the following six bills:
  --S. 1993 which would adjust the boundary of Santa Monica 
        Mountains National Recreation Area to include the area 
        known as the Rim of the Valley corridor.
  --S. 2441 which would eliminate the funding limitation for 
        the Steel Industry National Heritage Area.
  --S. 2570 which would eliminate the funding authorization 
        sunset and the funding limitation for the Essex 
        National Historic Area.
  --S. 2604 which would extend the funding authorization sunset 
        and funding limitation for the Oil Regional National 
        Heritage Area.
  --S. 2870 which would authorize a special resource study of 
        the site known as `Amache' in Colorado.
  --S. 2876 which would authorize a study of the Pike Trail for 
        potential designation as a National Historic Trail.
    The Department does not support H.R. 599 and H.R. 1488 
which would re-designate Indiana Dunes National Lakeshore as 
Indiana Dunes National Park; however, we do not object to the 
provision in the House bill that would rename the Miller Woods 
Trail as the Paul H. Douglas Trail.
    The Department opposes S. 1644 which would designate 
Captain John Smith Chesapeake National Historic Trail as a unit 
of the National Park System.
    Finally, the Department defers to the Department of 
Agriculture for a position on S. 1926 and H.R. 2156 because 
those bills would authorize a national memorial on U.S. Forest 
Service land.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. On H. Con. Res. 33, because that resolution 
would confer the designation of national to the library in 
honor of George C. Marshall, whose work was associated with 
those two departments.
    Mr. Chairman, that concludes my remarks. I look forward to 
answering your questions.
    [The prepared statements of Mr. Smith follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you, Mr. Smith, for your testimony.
    We will now move to questions from the Committee. I will 
start. I would like to ask you about the Vietnam Veteran 
Memorial Visitors Center Extension Act, Senate bill 3298, which 
I introduced with Senator Duckworth.
    First, I want to thank the Department for your support of 
this legislation. It is my understanding that according to your 
written testimony that the Vietnam Veterans Memorial Fund 
(VVMF) has obtained the appropriate approvals and worked 
through very extensive design review and consultation to begin 
the construction process. At this point, the only thing holding 
them back is raising the necessary funds. Once they reach the 
required dollar amount, they will be eligible to receive a 
construction permit. Is that your understanding?
    Mr. Smith. That is also my understanding, Senator, yes.
    Senator Daines. It is also my understanding that part of 
the obligation of the VVMF is to raise enough money before they 
receive their construction permit to help pay for ongoing 
maintenance of the site. Is that also your understanding?
    Mr. Smith. It's my understanding, yes, Senator and also, 
that that really is the amount that they still need to raise. 
They've raised, by far, the majority of the money necessary to 
build this visitor center.
    Senator Daines. How does that work as it relates to the 
endowment and the maintenance and so forth?
    Mr. Smith. It's been standard process, while I've been with 
the Park Service over the years, that for these type of 
construction projects that because of the maintenance that will 
continue in years later, we do ask for endowments of that type.
    There was----
    Senator Daines. So they will have to raise the funds for 
the construction and they have to raise the funds that match 
the construction plus another, what, another 10 percent or so 
to create that endowment? Is that the understanding?
    Mr. Smith. Yes, yes.
    Senator Daines. Okay.
    Mr. Smith. And that was the situation for the Vietnam 
Veterans Memorial, the same features were input, in that they 
had to raise money for that endowment. Yes.
    Senator Daines. Thank you.
    I want to shift gears now to Senate bill 2089, the Medgar 
Evers and monument designations.
    Today we are examining three bills that, if enacted, would 
establish national monuments. These include Senate bill 3176; 
Senate bill 3287, introduced by Leader McConnell; and Senate 
bill 2889, introduced by Senator Wicker. It is my understanding 
that there is a tremendous amount of local support for each of 
these designations. It is also my belief that obtaining local 
support is vital prior to designating a national monument or 
enacting a new land use decision. It is also my understanding 
that the Department supports each of these bills.
    I did note that your written testimony on Senate bill 2889 
suggests a few tweaks to the language which includes the 
addition of Medgar Evers' wife, Myrlie, in the name of the 
monument. Could you talk a bit about the importance of 
including Myrlie Evers in the name of this monument and why the 
Department suggested some small changes to the legislation?
    Mr. Smith. Mr. Chairman, the tragedy that happened to 
Medgar Evers is well known. His wife was at his side during all 
the time he served with the NAACP in the civil rights movement 
in Mississippi. While he was so active around the country, she 
ran that office in Mississippi. After his death, she took on 
the role that he had carried forward and she was a full 
participant in everything for the civil rights movement that 
was going on at that time. They were partners in life and it's, 
we feel, it's very important that it should also recognize her 
contributions to the civil rights movement.
    Senator Daines. Thank you for that answer.
    One more question and then I am going to yield to the 
Ranking Member, Senator King.
    I have also noticed in your written testimony the 
Department is not in support of extending the authority for the 
national heritage area bills we are considering today--Senate 
bill 2441, Senate bill 2570 and Senate bill 2604.
    As your testimony states, nearly all heritage areas were 
initially authorized to receive federal funding for a set 
period of time which is generally 15 years with a cap on that 
funding which is typically $10 million. Could you speak to why 
the Department believes it is important to limit the scope of 
authorization or repealing caps on these heritage areas?
    Mr. Smith. Yes Senator, and I give you these comments 
realizing the value that these national heritage areas do have.
    In the original heritage areas that were created, and we're 
up to 49 now and few more are being considered in this 
Congress, we're now to a point where the funds for those are at 
about $20.3 million. Congress has, in the past few years for 
the new heritage areas, limited those funds to where it's 
$150,000 until there's a general management plan and then a cap 
of $300,000 after that. The ones that have been grandfathered 
have up to $700,000 that are appropriated for them.
    The original intent in this wonderful idea for national 
heritage areas was that there would be a cap on the amount of 
money that they received and there would be a sunset clause in 
those.
    Basically, I have testified consistently on the fact that 
we do not support these bills, primarily because of the 
National Park Service budget situation that we're in where when 
we have $20.3 million going to these heritage areas, it's money 
that could be used more for the operation of the National Park 
Service and, of course, in our total budget where we are so 
concerned about deferred maintenance.
    Again, by stating that position, I, in no way, say that 
these are not very valuable in what they do in their local and 
regional and states, but it's a budgetary issue and an issue of 
priorities in the Department at this time.
    Senator Daines. Thank you, Mr. Smith.
    Senator King.
    Senator King. Mr. Smith, what I am interested in is why 
some are approved and others are not. There seems to be concern 
about the backlog--which we share, and as you know, we are 
working on that--and concern about expenditures. I am not 
objecting to the ones that you are approving or that you 
approve of, but I wonder how you distinguish one from another. 
The Chesapeake Trail, for example, versus Medgar Evers National 
Monument versus--I mean, there are any number of different 
ones--Pike National Historic Trail. How do you make those 
decisions?
    Mr. Smith. That's an excellent question, Senator.
    For the three that we've discussed that are on the parallel 
track, both through legislation or possibly a designation by 
the President and the Antiquities Act, those sites are all 
national historic landmarks. Those sites all have tremendous 
local support for them to be included in the system. Those 
sites all have donated properties so there will not be 
acquisition costs for that land. All three actually have 
established visitor centers. So they are very unique in coming 
into the system.
    There will be some cost to them, obviously, with staff and 
certainly some improvements and whatever else, but those are 
just so significant because of their status of being so 
significant to our history that we've made the decision that 
those should be supported.
    There's not a moratorium at the Department on new sites. 
It's just basically a realization that some things, even on 
some of the studies we talk about on these bills----
    Senator King. Well, there are two studies that you object 
to, as I recall.
    Mr. Smith. Yes. Well, the studies are, part of the studies 
are a little bit financially, but mostly we've got a backlog of 
20 studies right now that we have not completed or have not 
actually begun. We usually have a three-year timeframe to begin 
those. So, again Senator, it becomes a budgetary and a priority 
issue within the Department of how much the system can take at 
any one time.
    But for the ones today, the significance of the three that 
we've discussed the most, those are just very, very significant 
and suitable for inclusion in the system and because of the 
interest of the local constituencies for those, we have made 
the decision to support those bills.
    Senator King. But I am sure there is local support for the 
Oil Region National Heritage Area Act. I mean, I am sure there 
is local support for that in Pennsylvania.
    Perhaps you could provide for the record a succinct 
summary, not case by case, but the general criteria. I can 
understand, for example, you describe the three as already, in 
effect, done. They have visitor centers, and they are already 
national sites of one description or another.
    So, really, I think what you are saying is we are changing 
the name without necessarily changing the obligation of the 
government, but it would be helpful to me to distinguish 
because there are 24 bills. I know the sponsors feel strongly 
about all of them. They all have local support and local 
interest.
    I would be interested if you could submit for the record a 
narrative of the criteria used to decide that some are entitled 
to further protection and funding, while others are not. I 
think that is important, just for our colleagues who are deeply 
interested in all of these bills.
    Mr. Smith. Senator, we will provide that for the record.
    And one other statement on the heritage areas.
    Actually, we have that position because that's the original 
intent of Congress. Congress basically set forward the 
circumstances under which we do national heritage areas and in 
the original legislation for all of these there's a sunset 
clause and an authorization at a certain level. We're actually 
trying to comply with what Congressional direction has been on 
these heritage sites.
    Senator King. Okay, I think that is helpful to give us that 
background.
    Well, I would like to associate myself with the Chairman's 
comments at the beginning about the extension on the Vietnam 
area.
    I have no objection, whatsoever, to those that you are 
designating. I just want to be sure that everybody had a fair 
consideration in terms of these important designations.
    Mr. Smith. Could I speak to the Vietnam Veterans Visitors 
Center?
    Senator King. Please.
    Mr. Smith. I'm a veteran of the Vietnam War, drafted on 
Christmas Eve of 1968 and served with the 4th infantry division 
in Vietnam in '69 and '70. When I came out of the Army I had 
the privilege, later, of being with the Reagan Administration 
when Jan Scruggs and the Vietnam Veterans Memorial Fund 
accomplished what they did to build that memorial. I was there 
on the day we broke ground for it, I was there on the day when 
President Reagan dedicated it and I think that the position 
that the Department has taken there is a very necessary one.
    Our country has been at war for quite a while now, but 
we've had the support of the American people. The Vietnam 
Veterans Memorial, the country was in a tremendous social 
upheaval and I think it's very important that that story be 
told. I thank you for the personal privilege to add that to the 
record.
    Senator King. I am glad that you did. Thank you very much, 
and thank you for your service.
    Mr. Chairman.
    Senator Daines. Thank you, Senator King.
    I, too, thank you for those comments and for your service 
to our country.
    I also would agree with Senator King's request to further 
illustrate the rationale behind the decision around what is 
supported and what is not. I think this will help the Committee 
if there are some issues around Congressional intent we need to 
deal with as a Committee and legislate it as something we could 
take as an item for consideration as well.
    If there are no more questions for today, members may also 
submit follow-up written questions for the record.
    This hearing record will be open for two weeks.
    I want to thank Mr. Smith for his time, for your service to 
our country and your testimony today.
    The hearing is adjourned.
    [Whereupon, at 4:30 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
